Before the Subcommittee on Transportation, Housing and Urban
Development, and Related Agencies
Committee on Appropriations
United States Senate


 For Release on Delivery
 Expected at
 10:30 a.m. EST
                           Amtrak’s FY 2008
                           Budget Needs
 Wednesday
 February 28, 2007
 CC-2007-025




                           Statement of
                           David Tornquist
                           Assistant Inspector General
                           Competition and Economic Analysis
                           U.S. Department of Transportation, Office
                           of Inspector General
Chairman Murray, Ranking Member Bond and Members of the Subcommittee:

I appreciate the opportunity to present the views of the Office of Inspector General
on Amtrak’s Fiscal Year (FY) 2008 financial needs, its recent efforts to improve
its financial condition, and alternatives for financing intercity passenger rail. My
statement today will draw upon the Quarterly Reports on Amtrak’s Savings from
Operational Reforms your committee and your House counterparts have requested
of our office, as well as other work we have undertaken on Amtrak’s financial and
operating performance.

Amtrak’s Condition Remains Precarious. Amtrak set records in both ridership
and ticket revenue in FY 2006, ended the year with over $200 million in the bank,
and achieved $61 million in savings from operational reforms. Does this mean
Amtrak has turned the corner operationally and financially? No, unfortunately, it
doesn’t. While improvements have been made, we believe Amtrak’s condition
remains precarious.

Amtrak deserves credit for the recent progress it has made in providing improved
service and achieving cost savings. The result of this progress is evident in
Amtrak’s improved ridership and revenue. Nevertheless, Amtrak has a long way
to go before it can reach, let alone turn, the proverbial corner. Systemwide, on-
time performance declined for the fifth consecutive year, operating losses remain
unsustainably high, the infrastructure still shows the toll of years of
underinvestment, and debt service continues to significantly cut into available
funds. Much has been done to improve Amtrak, but much more work remains.

Amtrak Requires More in Capital and Less in Operating Subsidy in FY 2008.
Based on the information available today, Amtrak would need $465 million
available to it in FY 2008 for cash operating losses, $600 million for capital
spending, and $285 million for debt service to operate a nationwide system while
maintaining modest progress towards achieving a state of good repair. As Amtrak
revises its revenue and expense estimates during the year, our estimate also may
change. Not all these funds need come from direct appropriations, some could
come from Amtrak’s cash balances, depending on its projected yearend cash
position later in the year.

A $465 million operating subsidy in FY 2008 would enable Amtrak to provide
nationwide passenger rail service, while focusing its attention on needed reform
and operational improvements. As Congress did in FY 2006, appropriating the
operating subsidy separately from the capital and debt service would prevent the
deferral of capital projects in order to avoid the more difficult work of improving
Amtrak’s operating efficiency. The capital amount will allow modest progress
                                                                                   2

toward a state-of-good repair and the debt service amount is Amtrak’s estimate of
its fixed cost for principal and interest.

We have testified previously that we support a state capital matching grant
program as a means to stimulate corridor development. With caveats, we support
the $100 million capital matching grant program included in the President’s
FY 2008 Budget and in S. 294, the Passenger Rail Investment and Improvement
Act. We believe this program must be designed to ensure the Federal investment
leverages new state investments and does not simply supplant investments that
states otherwise would have made. Further, Amtrak must finalize and gain
acceptance for its route restructuring, cost recovery for state services, and labor
reforms to improve the efficiency of its core operations before turning its attention
to expanding those operations. Finally, we would support an 80/20 match rate,
similar to that for highways, rather than the 50/50 match rate proposed by the
Administration, to put state investment in rail on an equal footing as other
transportation modes.

Increased Investment in Intercity Passenger Rail Must Go Hand in Hand With
Improved Operating Efficiencies.          Amtrak’s new CEO and his senior
management came aboard at a critical time in the ongoing efforts to instill fiscal
discipline at the corporation through operational reforms. Since the development
of the current Strategic Reform Initiatives, Amtrak is on its second CEO and its
Board has three new members. The Board and current management seem
committed to reform. However, the real test of that commitment will come shortly
as Amtrak moves from implementing relatively easy reforms to more challenging
ones.

In FY 2006 Amtrak realized $61.3 million in savings from operating reforms by
reducing the cost of its food and beverage service, improving the productivity of
its train operations, reducing corporate overhead, and increasing revenues through
variable fares on the Northeast Corridor (NEC) and enhanced service on the
Empire Builder. Amtrak has committed to saving an additional $61 million in
FY 2007 and $82 million in FY 2008 from reforms.

Regarding Amtrak’s continuing efforts to improve its financial condition, we are
concerned that Amtrak (1) may miss its reform savings target in FY 2007 because
some planned reforms are on hold while their potential to generate actual savings
is being reevaluated; (2) has limited detail on its planned FY 2008 reforms; (3) has
only high-level long-term implementation plans for its planned reforms, where it
has any long-term plans at all; and (4) may be overemphasizing revenue
enhancements instead of cost reductions. Management’s goal of “instilling a
culture of continuous improvement throughout the organization” is the right one.
                                                                                    3

Achieving it should be a necessary precondition for significant new state or
Federal investment in intercity passenger rail service.

More work needs to be done to eliminate the losses on food and beverage and, in
particular, first class sleeper service. Any subsidy of first-class passengers
remains unacceptable. In July 2005, we reported that Amtrak could save between
$75 million and $158 million in annual operating costs by eliminating sleeper car
service, outsourcing food and beverage service, and eliminating other amenities on
long distance trains. In FY 2006, the operating loss on long-distance trains was
almost $600 million with a per passenger operating subsidy of over $200 on three
of the routes. A significant amount of work needs to be done to finalize and
implement Amtrak’s proposed route restructuring, state services, and labor reform
initiatives, all three of which are critical components of Amtrak’s long-term
financial plan.

Reauthorization Holds the Key to Amtrak’s Long-Term Outlook. As we testified
previously, our proposal for financing intercity passenger rail service would focus
on three key goals: (1) continuous improvements in the cost-effectiveness of
services provided, (2) devolution of the power to determine those services to the
states, and (3) adequate and stable sources of Federal and state funding. Our
proposal requires a reauthorization for Amtrak.

These goals can be achieved through six programmatic changes: formula grants to
states for capital and operating costs of intercity passenger services, restoration of
the forward-going system to a state-of-good repair, capital matching grants to
states for corridor development, establishment of adequate Federal and state
funding, resolution of the legacy debt issues, and resolution of NEC ownership
and control.

Other alternatives for financing intercity passenger rail service include
(1) permitting states to issue tax exempt bonds for rail infrastructure development
and (2) turning the NEC over to private investors with the support of a Federal
loan. Permitting states to issue tax exempt bonds for rail infrastructure would
address a goal we support of providing states with greater access to capital funds.
Regarding whether tax exempt bonds is the preferred way to make these capital
funds available, I would note that the Congressional Budget Office has concluded
that when tax credit bonds are used in lieu of Federal appropriations, the cost to
the Federal government is greater than it would be through conventional financing
through the Department of the Treasury. However, carefully designed tax credit
bonds could cost the Federal Government less per dollar of assistance provided to
state and local governments than the Federal tax exemption accorded “municipal”
bonds issued by those governments.
                                                                                 4

Turning the NEC over to private investors has some attractive features,
particularly adding private investment through rail-dependent development and
proposed service improvements. However, we raised in the past concerns
regarding proposals to separate the NEC infrastructure management and
operations into two independent companies. In addition, we would have to see a
more detailed financing proposal to determine its soundness.

Absent a fundamental restructuring of the company through reauthorization, it will
again fall to the Appropriations Committees to maintain fiscal discipline at
Amtrak, specifically by limiting the funds made available to subsidize operating
losses and by making Federal support conditional upon further operational
restructuring.

I will now discuss these issues in greater detail.

Despite Improvements, Amtrak’s Financial Condition
Remains Precarious
The current model for providing intercity passenger service continues to produce
financial instability and poor service quality. We have seen some improvement in
Amtrak’s financial and operating performance recently, but there are limits as to
how much can be done within the current framework.

Operating Losses. Amtrak continues to incur substantial operating losses. It
ended FY 2006 with a net operating loss of $1.1 billion. On the positive side,
Amtrak’s net operating loss was $65 million less than last year and its cash
operating loss, excluding interest and depreciation, was $17 million less than the
same period last year. Operating losses on long-distance trains, excluding interest
and depreciation, were $440 million in FY 2006. Over the last 5 years, annual
cash losses, excluding interest and depreciation, have fallen only modestly – a
little more than 3 percent a year.
                                                                                                                                                                 5


                                              Operating and Cash Losses* and Cash Balances
                                                         FY 2002 through FY 2006

                                   1,400
                                                                                           $1,309
                                                                    $1,274
                                   1,200                                                                      $1,192
                                               $1,132                                                                                 $1,127

                                   1,000
                     $ millions1




                                       800


                                       600
                                                     $497                   $496                $486
                                                                                                                      $450                   $433
                                       400
                                                                                                      $247
                                                                              $182                                                               $215
                                       200               $169
                                                                                                                            $75
                                        0
                                                     2002                  2003                2004                  2005                 2006


                                                                     Operating Loss          Cash Loss         Cash Balance

*
 Amtrak reports earnings before interest, taxes, depreciation and other post employment benefits (OPEBs).

Debt Burden. Amtrak continues to carry a large debt burden. Its total debt
peaked at $4.8 billion in FY 2002 and has declined to $4.2 billion in FY 2006. For
the foreseeable future, Amtrak’s annual debt service will approach $300 million,
eating into the amount of funds potentially available for critical capital
investments.

                                                                    Short- and Long-Term Debt
                                                                     FY 1997 through FY 2006
                    5,000                                                          4,628       4,826         4,817          4,628
                                                                                                                                         4,426
                                                                                                                                                        4,244
                    4,000                                                                           3,852      3,773          3,673
                                                                    3,577            3,632                                                   3,525
                                                                                                                                                         3,350

                    3,000                                             2,798
      $ millions1




                                                        2,449
                                        2,157
                    2,000                                   1,792
                                             1,536
                                                                                   996         974           1,044
                                                                                                                        955            901              894
                    1,000                                           779
                                        621             657


                                   0
                                             1998        1999         2000           2001           2002       2003           2004        2005           2006

                                                                          Short-Term Debt            Long-Term Debt           Total
                                                                                                                                  6


Revenue and Ridership. Passenger revenues increased to a peak level of
$1.426 billion in FY 2006, primarily as a result of Amtrak’s systemwide general
fare increases and revenue management of the NEC Regional and Acela Express
services (Amtrak’s premier service). Despite the fare increases, ridership
increased to 24.3 million in FY 2006. For the first 3 months of FY 2007,
passenger revenues were $36 million higher than the same period in FY 2006,
mainly due to fare increases. Ridership growth during this period rose 3.9 percent.

                                      Passenger-Related Revenue* and Ridership
                                              FY 1997 through FY 2006
                          1,500                                                                    26


                          1,250




                                                                                                        Ridership (millions) 11
                                                                                                   24
   Revenue ($ millions)




                          1,000


                           750                                                                     22


                           500
                                                                                                   20
                           250


                             0                                                                     18
                             1997   1998   1999   2000     2001    2002    2003   2004   2005   2006

                                                         Revenue    Ridership

*Excludes state supported train revenues.


On-Time Performance. Systemwide, on-time performance has been declining
steadily since FY 2002, from 77 percent to 68 percent in FY 2006. While
Amtrak’s Acela Express service achieved on-time performance of nearly 85
percent, long-distance trains averaged 30 percent last year. The poorest
performing train, the Coast Starlight had an on-time performance of only
3.9 percent. Systemwide, on-time performance in the first quarter of FY 2007
increased to 69.1 percent, compared to 65.3 percent for the first quarter of FY
2006.
                                                                                                    7


                                         Systemwide On-Time Performance
                                             FY 1997 through FY 2006


                     80%           79%     79%
                                                 78%
                                                                77%
   11




                                                         75%
   Percent On-Time




                     75%    74%                                        74%


                                                                              71%
                                                                                      70%
                     70%
                                                                                              68%



                     65%
                           1997   1998    1999   2000   2001   2002   2003   2004   2005    2006




The Appropriations Process Can Provide Needed Fiscal
Discipline Over Amtrak’s Operating Losses While
Amtrak Continues to Address Critical Capital Needs
The delivery of intercity passenger rail service needs to be fundamentally
restructured through a reauthorization. However, as we have seen in the past year,
meaningful, but incremental, operational reforms are still possible in the absence
of a reauthorization. The process established by the Appropriations Committee in
FY 2006, which specifically directed Amtrak to achieve savings through operating
efficiencies, achieved $61 million in savings in the first year. This process is not a
substitute for reauthorization, but it is of considerable value nonetheless, and we
strongly encourage Congress to continue it in FY 2008. As we stated in our
March 16, 2006 testimony, a critical component is funding Amtrak at a level that
maintains the impetus for reform. This would require that the operating subsidy
be appropriated separately from the capital and debt service appropriations.

Our recommendation of an operating grant of $465 million in FY 2008 reflects the
need to keep the process of continual improvement at Amtrak moving forward. It
also takes into consideration Amtrak’s better-than-expected FY 2006 headcount,
lower FY 2006 expenses, and our concerns regarding the methodology Amtrak
uses in developing its budget estimates, which we previously reported on. These
factors led us to conclude in our January 2007 Quarterly Report on Amtrak’s
                                                                                  8

Savings from Operational Reforms that Amtrak needed a FY 2007 operating
subsidy of $470 million. (This recommended FY 2007 operating subsidy was an
increase of $37 million above Amtrak’s actual cash operating loss in FY 2006 of
$433 million.) Our lower starting point for FY 2007, recent increases in revenue,
and lower personnel costs lead us to our recommendation of a $465 million
FY 2008 operating subsidy.

A significant unknown at this point is whether there will be labor settlements this
year and, if they occur, what the associated costs and possible work rule changes
may be. Agreement labor costs, including benefits, account for more than half of
Amtrak’s current cost structure. The net effect of a final settlement would need to
be reflected in our recommended FY 2008 operating subsidy recommendation.

Amtrak estimates a backlog of approximately $5 billion in capital projects. Our
recommendation to provide an increase in FY 2008 for capital to $600 million
reflects a need to address this backlog to continue progress towards achieving a
state-of-good repair balanced with practical considerations regarding how many
additional capital projects Amtrak can take on in one year.

Increased Investment in Intercity Passenger Rail Must
Go Hand-in-Hand With Improved Operating Efficiencies
Amtrak achieved $61.3 million in savings from operational reforms in FY 2006,
exceeding its original savings estimate by $37.7 million or more than 60 percent.
Well over half these savings came from reforms that increased revenues, not
reduced costs. Amtrak saved $14 million from food and beverage service reforms,
$7.6 million from improved train operations, $5.6 million from reduced corporate
overhead, $5.2 million from enhanced revenue generated on long-distance trains,
and $28.9 million from revenue enhancements and operating efficiencies on the
NEC. This is a good start, but, in part, reflects reforms that were easier to
implement.

Amtrak has also taken steps to improve its oversight and management of reform
initiatives. This includes developing a standardized project management approach
in an effort to provide a more reliable measurement of cost savings, better internal
oversight, and enhanced tracking and reporting capabilities. In addition, Amtrak is
working to develop the appropriate links between its planning and financial
systems for more reliable estimating and reporting of cost savings and better
integration of these savings into the budget process.

In FY 2007 and beyond, Amtrak plans to implement operational reforms in eight
areas: (1) improving service quality on long-distance trains and reducing the cost
                                                                                   9

of providing food and beverage service; (2) improving the efficiency of Amtrak’s
major ticket sales, distribution channels, and related pricing enhancements;
(3) improving the reliability and efficiency of Amtrak’s Mechanical Department
and materials management; (4) increasing business efficiencies through the
development of improved Management Information Systems and the reduction of
overhead costs; (5) improving the cost-effectiveness of train operations;
(6) network restructuring, corridor development, and improved fleet and
infrastructure utilization; (7) improved cost recovery from states for corridor
services and from commuters on the NEC; and (8) reducing unit costs and
increasing job flexibility by negotiating new labor agreements that will eliminate
certain work rule and outsourcing restrictions.

Amtrak estimates that these initiatives will save at least $320 million in FY 2012.
Almost three-quarters of these savings are expected to come from three initiatives:
food and beverage reform and service quality improvements, mechanical service
efficiencies, and network restructuring and asset utilization improvement.

There is considerable uncertainty as to whether these savings will be achieved.
First, the savings estimates that do exist are preliminary and the proposals lack
detailed annual program plans. Projected FY 2012 savings have not yet been
developed for the state payments and labor reform initiatives.

Second, the lack of detail makes it impossible for us to assess the accuracy of
these cost estimates. As we have seen recently with the sleeper car initiative, once
substance is added to the proposal, the savings can evaporate. This proposal was
originally targeted to save almost $20 million in FY 2007. However, it is
currently on hold as Amtrak reevaluates whether the costs saved by removing
some sleeper cars outweighs the associated foregone revenue. It is unlikely that
any savings will be derived from this reform in FY 2007, if any savings are
derived from it at all.

Third, reliance on revenue enhancements to achieve savings raises concerns
regarding their reliability over the long run. Several initiatives are aimed to
increase ridership and ticket revenues, including service quality improvement, on-
time performance, enhanced long-distance service, and market-based pricing
initiatives. While we believe Amtrak should pursue initiatives to increase
revenues, the long-term sustainability is subject to factors beyond their control,
such as changing market demand, the relative cost of different travel modes, and
competition from new air service. As such, it is more difficult for Amtrak to count
on these savings in the long run.

Amtrak needs to define the reform initiatives it plans to implement in FY 2008 to
achieve its stated goal of $82 million in savings. In addition, it needs to settle on
                                                                                  10

which initiatives it is willing to commit to over the long run, develop detailed
implementation plans for those initiatives, and incorporate them into its upcoming
multi-year strategic plan.

Critical Decisions are Needed Before Implementing a
State Capital Grant Program

Amtrak’s vision for the future is based on passenger rail growth through state-led
corridor service development, supported by a Federal program of state capital
matching grants. We have long believed that corridor service, that is, routes of
between 100 and 500 miles, represent the greatest potential for ridership growth.
An obstacle to realizing this potential has been the significant capital investment
needed to improve the freight-owned infrastructure to accommodate this expanded
service. The Administration’s proposed $100 million state capital matching grant
program would be an important start to new corridor development. A robust
program that would support a reasonable level of new service in the long run could
ultimately require this program to be funded at annual levels of from $1.3 billion
to $1.6 billion.

Several critical issues need to be addressed before this program is implemented.
First, the purpose of this new Federal investment must be to leverage an increase
in total investment in rail service and infrastructure. There is little point to this
new program if it simply results in supplanting existing state investments.

Second, this program is premised on states assuming funding responsibility for
any new service that does not cover its costs. If a significant Federal capital
investment is going to be made to initiate a new service, consideration must be
given to a state’s commitment and capacity to support the operation of this service
over the long run.

Third, we believe an 80/20 matching rate, instead of the Administration’s
proposed 50/50 matching rate, would provide an incentive for a state to take an
“ownership” role in developing rail corridors on a more comparable basis with
other transportation modes (historically, highways have used an 80/20 match). A
higher match rate for rail infrastructure would require a state to invest more of its
own money to obtain the same amount of Federal funds in return. As such, this
may cause states to favor highways over rail to maximize the “return” on their
state investments.
                                                                                  11

Reauthorization is a Better Course for Reforming
Intercity Passenger Rail Service
Incremental operating savings over the next 5 or 6 years will not be sufficient to
fund the significant increases in capital investment required to return the system to
a state-of-good-repair and promote corridor development. This mismatch of
funding sources and needs requires a long-term solution that can be achieved only
by changing the model for intercity passenger rail.

To create a new model for intercity passenger rail, a comprehensive
reauthorization that provides new direction and adequate funding is needed. The
problem with the current model extends beyond funding—there are inadequate
incentives for Amtrak to provide cost-effective service; state-of-good-repair needs
are not being adequately addressed; and states have insufficient leverage in
determining service delivery options, in part because Amtrak receives Federal rail
funds, not the states.

Reauthorization should establish meaningful reforms that ensure greater cost-
effectiveness, responsiveness, and reliability in the delivery of passenger rail
transportation. Three central themes will drive successful reform.

   • Improvements in Cost-Effectiveness. Amtrak, as the sole provider of
     intercity passenger rail service has few incentives, other than the threat of
     budget cuts or elimination, for cost control or delivery of services in a cost-
     effective way. Amtrak has not achieved significant costs savings since its
     last reauthorization.

   • States Need a Larger Voice in Determining Service Requirements. The
     current model for providing intercity passenger service does not put states
     in a position to decide upon the best mix of service for their needs—what
     cities are served, schedules and frequency of service, and what amenities
     should be provided. Those decisions are made by Amtrak, and the choices
     Amtrak makes are not always the same as the ones the states would make.
     Intercity passenger rail would be better served with state-led initiatives as
     to where and how intercity passenger rail service is developed. States are
     best able to determine the level of passenger rail service required to meet
     their strategic transportation needs and state sponsorship will become
     increasingly important as they will be asked to provide increased operating
     and investment support. Capital funding decisions, as with mass transit,
     should ultimately reside with the Department of Transportation, based on
     congressional direction and in partnership with the states.
                                                                                12

   • Adequate and Stable Federal Funding is Essential.               None of the
     corridors around the country, including the NEC, can provide the type of
     mobility needed without significant capital investment. In the NEC, this
     means bringing the existing facilities to a state-of-good-repair with no
     match requirement. In other corridors around the country, it means creating
     the infrastructure for high-frequency services in partnership with freight
     railroads and commuter authorities. A robust Federal program of capital
     matching grants will be essential if these corridors are to be developed. In
     addition, long-distance services that provide connections between corridors
     require recapitalization if they are to be run efficiently and are to provide
     the high quality services their passengers deserve. None of this, however,
     implies giving more money directly to Amtrak, especially under the current
     model.

In our view, a framework for reauthorization requires the incorporation of six core
elements.

   1. Capital Matching Grants to States for Development of Corridor
      Services. This program would give states the ability to improve and
      expand routes and service on their supported corridor routes through a
      Federal capital funding program with a reasonable state match requirement.

   2. Formula Grants to States for Capital and Operating Costs.               This
      program would address the needs of areas served by long-distance routes
      that have little corridor development potential, while simultaneously
      creating incentives for states to encourage operating efficiencies from the
      service operator. Formula funds can be used for operating expenses, capital
      maintenance, and/or capital improvements at the discretion of the states and
      have no match requirement.

   3. Restoration of the Forward-Going System to a State-of-Good-Repair.
      This program would provide Federal funds, with no match required, to
      address the accumulated backlog of deferred investment and maintenance
      on the NEC and in fleet and facilities outside the NEC. After a state-of-
      good-repair has been achieved, capital funds with a reasonable state match
      would be available for capital maintenance.
   4. Setting Federal and State Funding of These Programs at Adequate
      Levels. Federal funding levels, along with state contributions have not
      been sufficient to subsidize operations, address deferred capital needs, and
      significantly improve service along the existing rail network.

   5. Resolution of the Legacy Debt Issue. This element would give the
      Secretary the authority to evaluate Amtrak’s debt and to take action in the
                                                                                  13

      best interest of intercity passenger rail that is economically advantageous to
      the United States Government.

   6. Resolution of Northeast Corridor Ownership.                 The NEC is of
      considerable interest in reauthorization. Unlike the rest of the passenger
      rail system, Amtrak owns the infrastructure between Boston and
      Washington, D.C. The Federal Government may decide to take on the
      responsibility of restoring the NEC to a state-of-good-repair, and its debt—
      if it is determined to be in the public’s interest to do so. Once the NEC is
      returned to a state-of-good-repair, the states can take a larger responsibility
      in directing and managing ongoing operations and maintenance. In return
      for fully funding the corridor, the Federal Government may decide to take
      title to Amtrak’s assets. Although Amtrak may very likely remain the
      operator for the NEC, we will be in a better position to decide what is the
      best use and ownership structure of the NEC assets by the end of the
      reauthorization period.

This framework would require cost efficiencies as Federal funds available to cover
operating losses would decline over the 5-year reauthorization period.
Specifically, it would give states greater responsibility for passenger rail
investments with oversight of capital investment vested in the Department.
Additionally, it would focus Federal funding on stable and robust capital
investment programs that would bring the system to a state-of-good-repair,
maintain it in that condition, and provide for the development of corridors
throughout the country.

Madam Chairman, this concludes my statement. I would be happy to answer any
questions at this time.
